IN THE SUPREME COURT OF THE UNITED STATES
_______________
No. 19-1039
PENNEAST PIPELINE COMPANY, LLC, PETITIONER
v.
STATE OF NEW JERSEY, ET AL.
_______________
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
_______________
MOTION OF THE UNITED STATES FOR LEAVE TO
PARTICIPATE IN ORAL ARGUMENT AS AMICUS CURIAE
AND FOR DIVIDED ARGUMENT
_______________
Pursuant to Rules 28.4 and 28.7 of the Rules of this Court,
the Solicitor General, on behalf of the United States, respectfully
moves for leave to participate in the oral argument in this case
as amicus curiae supporting petitioner and that the United States
be allowed ten minutes of argument time.

Petitioner has agreed to

cede ten minutes of its argument time to the United States and
therefore consents to this motion.

2
This case presents the question whether the Natural Gas Act
(NGA),

15

U.S.C.

717

et

seq.,

authorizes

the

holder

of

a

certificate of public convenience and necessity, authorizing the
construction of an interstate natural-gas pipeline, to initiate a
condemnation action to acquire State-owned property necessary for
the construction of the pipeline. Pursuant to the NGA, the Federal
Energy

Regulatory

Commission

(FERC)

authorized

petitioner

to

construct an interstate natural-gas pipeline along a specific
route from Luzerne County, Pennsylvania, to Mercer County, New
Jersey,

and

to

acquire

all

land

needed

including, if necessary, by eminent domain.

for

that

pipeline,

When petitioner later

initiated a condemnation proceeding to acquire land in which
respondents claim an interest, respondents argued that the NGA did
not authorize petitioner to commence the suit against them and, if
it did, the Eleventh Amendment prohibited it.

The district court

rejected respondents’ claims, but the court of appeals reversed.
The court of appeals expressed doubt whether Congress could,
consistent with the Eleventh Amendment, authorize a private entity
to initiate a condemnation action in order to exercise the federal
right

of

eminent

ultimately,

the

domain

court

against

declined

to

State-owned
decide

property.

that

But

constitutional

question, resting its decision instead on its conclusion that
Congress in the NGA had not authorized petitioner to file such a
condemnation action against a State.

3
The United States has filed a brief as amicus curiae in
support of petitioner.

The government argues, first, that the

court of appeals lacked jurisdiction to determine whether the NGA
authorizes petitioner to condemn respondents’ property, outside of
the NGA’s exclusive review scheme for the certificate of public
convenience and necessity.

The government further argues that,

even if the court possessed jurisdiction to address that question,
it erred in holding that the NGA does not authorize a pipeline
operator, when necessary, to initiate a condemnation action in
order to acquire any property that FERC has determined is necessary
for the construction of an interstate pipeline, without exception
for property in which a State may claim an interest.
The United States has a substantial interest in this case.
FERC is responsible for administering the NGA and for granting
certificates

of

public

convenience

and

necessity

for

the

construction and operation of interstate natural-gas pipelines,
including the certificate issued to petitioner in this case.

FERC

has a strong interest in ensuring that courts do not entertain
collateral attacks on FERC-issued certificates outside the direct
review scheme provided by the NGA.

And it also has a strong

interest in ensuring that private entities to which FERC has issued
such certificates possess the authority necessary to carry out the
federally approved projects, including, if necessary, through the
exercise of the federal right of eminent domain.

4
The government filed a brief as amicus curiae at the petition
stage of this case at the Court’s invitation.

The government has

presented argument in other cases addressing the meaning of the
NGA, the nature of the sovereign right of eminent domain, and the
scope of the Eleventh Amendment.

See, e.g., Knick v. Township of

Scott, 139 S. Ct. 2162 (2019) (eminent domain); Murr v. Wisconsin,
137 S. Ct. 1933 (2017) (eminent domain); Oneok, Inc. v. Learjet,
Inc., 575 U.S. 373 (2015) (NGA); Virginia Office for Protection &
Advocacy v. Stewart, 563 U.S. 247 (2011) (Eleventh Amendment);
Vermont Agency of Natural Resources v. United States ex rel.
Stevens,

529

U.S.

765

(2000)

(Eleventh

Amendment).

And

the

government believes that participation by the United States in
this case will be of material assistance to the Court.
Respectfully submitted.
ELIZABETH B. PRELOGAR
Acting Solicitor General
MARCH 2021

